NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          Semiannual Report
            to the Congress
        October 1, 2003 – March 31, 2004
OIG Semiannual Report                                                          March 2004




             INSPECTOR GENERAL'S MESSAGE TO
            THE NCUA BOARD AND THE CONGRESS
It is my pleasure to submit this Semiannual Report on the accomplishments of the
National Credit Union Administration (NCUA) Office of the Inspector General
(OIG) for the six-month period ending on March 31, 2004. This report
summarizes the major activities and accomplishments of the OIG during this
reporting period.

To the extent possible, I have focused, and will continue to focus, our limited
audit resources on NCUA’s primary programs and responsibilities as well as
ongoing financial and information security audits and evaluations. Consequently,
the OIG’s current Strategic Plan and Performance Plan project a series of audits
and reviews prioritized to assist NCUA in fulfilling its mission more effectively
and efficiently. We are aware, however, that these projections may be preempted
by specific requests from the Congress or the NCUA Board, new or updated
legislation, a failure requiring an OIG Material Loss Review, and emerging areas
of susceptibility. We remain poised to revise our plans accordingly should any of
these situations arise.

Our emphasis on the agency’s major programs during this reporting period
resulted in extensive survey work to plan an audit of NCUA’s program for
providing federal insurance to state chartered credit unions. This audit will focus
on how NCUA addresses material risk in state chartered credit unions that may
negatively affect the National Credit Union Share Insurance Fund (NCUSIF) and,
in particular, how NCUA determines the acceptability of reports prepared by the
individual state credit union supervisory authorities. I look forward to the
working challenges this audit presents as well as the opportunity to assist the
NCUA in ensuring the continued viability of the NCUSIF.

On the investigations side of the office, our investigations staff has experienced
a continually increasing caseload though our investigations staff remains at one
FTE. During the last reporting period, we closed four investigations and
initiated four new ones, two of which generated interest from the United States
Attorney's Office. Additionally, the investigations staff worked with agency
management to formalize and memorialize the policies and procedures for the
handling and dissemination of IG investigative information and reports of


                                          i
OIG Semiannual Report                                                        March 2004

investigation. Finally, during this reporting period, our investigations staff
organized a working group of investigators representing smaller Offices of
Inspectors General for the purpose of exchanging ideas and establishing a basis
for resource sharing. The group meets bi-monthly and has enjoyed a
steady expansion in membership.

I would again like to thank the NCUA Board and my dedicated staff for their
support, hard work, and cooperation. In particular, I would like to thank our
outgoing Chairman, the Honorable Dennis Dollar, for his consistent support and
understanding of our unique role within the agency. While we have not always
agreed on every matter, Chairman Dollar’s respect for the IG’s independence and
responsibilities fostered a constructive and rewarding working relationship. I
look forward to continuing that positive relationship with NCUA’s existing Board
members and with the next appointee to Chairman Dollar’s slot on the NCUA
Board.




                                        ii
OIG Semiannual Report                                                                                            March 2004


                                             TABLE OF CONTENTS

INSPECTOR GENERAL’S MESSAGE……………………………………………...                                                                                i

NCUA AND OFFICE OF INSPECTOR GENERAL MISSION STATEMENTS…...                                                                    1

INTRODUCTION……………………………………………………………………..                                                                                       2

NCUA ORGANIZATION CHART……...…………………………………………...                                                                                4

NCUA HIGHLIGHTS…...............................................................................................                5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS.......................................                                               6

LEGISLATIVE HIGHLIGHTS....................................................................................                     7

OFFICE OF THE INSPECTOR GENERAL................................................................                                9

          Audit Activity....................................................................................................   10

          Investigative Activity…….................................................................................            12

          Legislative and Regulatory Reviews……….....................................................                           15

TABLE I – REPORTS WITH QUESTIONED COSTS…………………...................                                                              17

TABLE II – REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT
TO BETTER USE.........................................................................................................         18

TABLE III – SUMMARY OF OIG ACTIVITY...........................................................                                 19

INDEX OF REPORTING REQUIREMENTS………………………………………..                                                                               20
OIG Semiannual Report                                     March 2004


                        MISSION STATEMENTS




                          THE NCUA MISSION
OUR CHARGE IS TO FOSTER THE SAFETY AND SOUNDNESS OF FEDERALLY INSURED
CREDIT UNIONS AND TO BETTER ENABLE THE CREDIT UNION COMMUNITY TO EXTEND
AVAILABILITY OF FINANCIAL SERVICES FOR PROVIDENT AND PRODUCTIVE PURPOSES
TO ALL WHO SEEK SUCH SERVICE, WHILE RECOGNIZING AND ENCOURAGING THE
HISTORICAL EMPHASIS BY CREDIT UNIONS ON EXTENSION OF FINANCIAL SERVICES TO
THOSE OF MODEST MEANS.

WE DO THIS BY MANAGING THE SHARE INSURANCE FUND IN AN EFFICIENT AND
PRUDENT MANNER AND ESTABLISHING A REGULATORY ENVIRONMENT THAT
ENCOURAGES INNOVATION, FLEXIBILITY, AND CONTINUED FOCUS ON ATTRACTING
NEW MEMBERS AND IMPROVING FINANCIAL SERVICE TO EXISTING MEMBERS.




            THE OFFICE OF INSPECTOR GENERAL MISSION
THE OIG PROMOTES THE ECONOMY, EFFICIENCY, AND EFFECTIVENESS OF NCUA
PROGRAMS AND OPERATIONS, AND DETECTS AND DETERS FRAUD, WASTE, AND ABUSE,
THEREBY SUPPORTING NCUA’S MISSION OF MONITORING AND PROMOTING SAFE AND
SOUND FEDERALLY INSURED CREDIT UNIONS.

WE ACCOMPLISH OUR MISSION BY CONDUCTING INDEPENDENT AUDITS,
INVESTIGATIONS, AND OTHER ACTIVITES, AND BY KEEPING THE NCUA BOARD AND THE
CONGRESS FULLY AND CURRENTLY INFORMED OF OUR WORK.




                                    1
OIG Semiannual Report                                                          March 2004


                                INTRODUCTION


T
       he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
       responsible for chartering, examining, supervising, and insuring federal credit
       unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is funded by
the credit unions it supervises and insures. As of December 31, 2003, the NCUA was
supervising and insuring 5,776 federal credit unions and insuring 3,593 state-chartered
credit unions, a total of 9,369 institutions. This represents a loss of 177 federal and 142
state-chartered institutions since December 31, 2002, for a total loss of 319 credit unions
nationwide.


                             Federally Insured Credit Unions



     12000
     10000
               4180      4062      3980
       8000                                 3866      3735     3593
       6000                                                                       FISCUs
       4000                                                                       FCUs
               6815      6566      6336     6118      5953     5776
       2000
           0
               1998      1999      2000     2001      2002     2003

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, including
the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and
the Community Development Revolving Loan Fund.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Austin, Texas; and Tempe, Arizona. NCUA also operates the Asset
Management and Assistance Center (AMAC) in Austin, Texas. Please refer to the
NCUA organizational chart on page 4.

The NCUA Board adopted its 2004 budget on November 20, 2003. The final revised
2004 budget of $149,927,592 represents a decrease of $3,847,881 from the 2003 budget.
The Full Time Equivalent (FTE) staffing authorization for 2004 is 963, a reduction of 8
positions over the 2003 total of 971.


                                             2
OIG Semiannual Report                                                            March 2004



                                       NCUA Budget Dollars

      Millions
           160
           140
           120
           100
            80
            60
            40
            20
             0
                   1998      1999        2000         2001     2002    2003   2004




                                    N C U A A u th o riz e d S ta ff

    1200

    1000

     800

     600

     400

     200

       0
            1998          1999        2000        2001         2002    2003    2004




                                                  3
OIG Semiannual Report                      March 2004



                 NCUA ORGANIZATION CHART




                            4
OIG Semiannual Report                                                           March 2004



                              NCUA HIGHLIGHTS

PRESIDENT BUSH NAMES JOHNSON NCUA CHAIRMAN

Effective May 3, 2004, President George W. Bush named JoAnn Johnson to serve as
NCUA Chairman. Chairman Johnson was an Iowa State Senator prior to President
Bush’s appointment of her to the NCUA Board in 2002. She succeeds former Chairman
Dennis Dollar, who retired from the NCUA Board on April 30, 2004. The Bush
Administration has not yet named a successor to Dollar’s seat on the NCUA Board. Until
a third Board member is appointed or confirmed, Chairman Johnson and Board Member
Deborah Matz will serve as a two-person board.

CHAIRMAN JOHNSON VOICES SUPPORT FOR CURIA

Chairman Johnson, before the House Financial Services Subcommittee on Financial
Institutions on July 20, 2004, characterized the Financial Institutions Regulatory Relief
Act of 2004 as a significant bipartisan achievement that NCUA supports. Chairman
Johnson stated further that NCUA enthusiastically supports the introduction of the Credit
Union Regulatory Improvements Act of 2003 (CURIA). CURIA currently contains
statutory changes that will directly affect federal credit union operations, including
establishing a risk-based system for prompt corrective action (PCA), raising the cap on
member business lending (MBL) to 20 percent of total assets, and increasing the
minimum MBL threshold to $100,000.

NCUA ENABLES FEDERAL CREDIT UNIONS TO SERVE AS TRUSTEES FOR
HEALTH SAVINGS ACCOUNTS

On July 20, 2004, the NCUA Board approved final changes to its rules enabling federal
credit unions to serve as trustees or custodians for members Health Savings Accounts
(HAS). The rule implements authority contained in the Medicare Prescription Drug,
Improvement and Modernization Act of 2003, signed into law last December by President
Bush. Under the changes, federal credit unions may offer qualified members the
opportunity to establish and HAS.

NCUA TESTIFIES BEFORE U.S. SENATE

For the first time in recent history, NCUA joined the Federal Reserve Board, FDIC, and
other federal and state financial regulators in testifying on the condition of the financial
industry before the U.S. Senate Committee on Banking, Housing and Urban Affairs on
April 20, 2004. Former NCUA Chairman Dollar reported to committee members on the
strong state of the credit union industry as well as the health of the NCUA’s $6 billion
National Credit Union Share Insurance Fund.




                                              5
OIG Semiannual Report                                                          March 2004




    FEDERALLY INSURED CREDIT UNION HIGHLIGHTS


C
       redit unions submit quarterly call reports (financial and operational data) to
       NCUA. An NCUA staff assessment of the December 31, 2003, quarterly call
       reports submitted by all federally insured credit unions found that virtually all key
       financial indicators were stable.

KEY FINANCIAL INDICATORS STABLE

Looking at the December 31, 2003 quarterly statistics for major balance sheet items and
key ratios shows the following for the nation’s 9,369 federally insured credit unions:
assets grew 9.5 percent, or $53.0 billion; net worth to assets ratio remained the same at
10.7 percent; the loan to share ratio increased from 70.8 percent to 71.2 percent; the
delinquency ratio decreased from .79 to .77 percent; and credit union return on average
assets decreased from 1.07 percent to .99 percent.

SAVINGS INCREASED DURING 2003

Total share accounts increased 9.1 percent, or $44.1 billion; share drafts increased 12.6
percent; regular shares increased 11.5 percent; share certificates increased .4 percent;
money market shares grew 15 percent; IRA/KEOGH accounts grew 7.1 percent; and
other shares increased 9.3 percent. Non-member deposits increased 5.2 percent.

LOANS AND INVESTMENTS ALSO INCREASED DURING 2003

Loan growth of 9.8 percent resulted in an increase in total loans by $33.4 billion. First
mortgage real estate loans increased $16.8 billion or 16.7 percent; used auto loans
increased $9.0 billion or 12.5 percent; other real estate loans increased $3.6 billion or 7.8
percent; unsecured credit card loans increased $200 million or .8 percent; all other
unsecured loans decreased $300 million or 1.6 percent; new auto loans increased $3.3
billion or 5.5 percent; and all other loans increased $900 million or 4.7 percent. First
mortgage real estate loans are the largest single asset category with $117.5 billion
accounting for 31 percent of all loans. Total investments increased $20.6 billion or 14.7
percent. All investment categories, except mutual funds, displayed growth. Investments
in federal agency securities of $88.5 billion account for 55 percent of all credit union
investments.




                                             6
OIG Semiannual Report                                                          March 2004




                       LEGISLATIVE HIGHLIGHTS




CURIA GAINS FOUR NEW SPONSORS

The Credit Union Regulatory Improvements Act (CURIA), introduced last year by Rep.
Ed Royce-R-Calif., recently gained four additional cosponsors. Reps. Thomas Tancredo,
R-Colo., Donald Payne, D-N.J., Robert Cramer, D-Ala., and Thomas Allen, D-Maine, all
signed on to the bill on March 24, 2004, bringing total cosponsors to 36. Along with
several additional credit union-specific measures, the bill includes all of the credit union
regulatory relief items contained in H.R. 1375 except the one addressing membership in
the Federal Home Loan Banks. H.R. 1375, covering credit unions, banks, and thrifts,
was passed by the House on March 18 on a vote of 392-25 and awaits Senate action.
NCUA Chairman Dollar acknowledged lawmakers’ “even-handed assessment” of
NCUA’s recommendations on regulatory relief and their impact on credit unions under
the agency’s supervision.

HUD WITHDRAWS PROPOSED RESPA RULE

The U.S. Department of Housing and Urban Development (HUD) announced, on March
22, 2004, its decision to withdraw its proposed Real Estate Settlement Procedures Act
(RESPA) reform Final Rule from review by the Office of Management and Budget.
HUD’s proposed rule amended RESPA to allow federally regulated, fixed-rate
guaranteed-cost settlement packages and required companies to adhere more strictly to
required “good faith estimates” of loan fees and settlement costs.

DATES SET FOR FACT ACT IMPLEMENTATION

The first final rule implementing the Fair and Accurate Credit Transaction Act (FACT
Act) was issued on February 5, 2004, establishing two sets of effective dates that credit
unions must comply with. Rules making significant changes to business procedures
became effective on March 31, 2004. Those requiring few changes take effect on
December 1, 2004. The FACT Act, which became law in December 2003, creates a
number of important new consumer protections designed to help prevent identity theft
and assist consumers who become victims of this rapidly growing crime.


                                             7
OIG Semiannual Report                                                     March 2004


HOUSE APPROVES INCREASE IN FUNDING FOR NCUA’S COMMUNITY
DEVELOPMENT REVOLVING LOAN FUND

On December 8, 2003, the U.S. House of Representatives approved a conference report
that increased funding for NCUA’s Community Development Revolving Loan Fund
(CDRLF) by 20 percent, and provided funding for Federal Trade Commission oversight
of certain credit union disclosure requirements. The General Accounting Office (GAO)
recommended the funding increases in its October 2003 report, which provided a
comprehensive review of NCUA, the Share Insurance Fund, and credit union operations.
The GAO stated that the overall health and stability of credit unions has significantly
improved since its last review in 1991.




                                          8
OIG Semiannual Report                                                      March 2004



             OFFICE OF THE INSPECTOR GENERAL


T     he Office of the Inspector General was established at the NCUA in 1989 under the
      authority of the Inspector General Act of 1978, as amended in 1988. The staff
      consists of the Inspector General, Deputy Inspector General for Audits, Counsel to
the Inspector General, Director of Investigations, two Senior Auditors, Senior
Information Technology Auditor, and Office Manager.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant findings and
   recommendations.




                                           9
OIG Semiannual Report                                                       March 2004



                               AUDIT ACTIVITY
AUDIT REPORTS ISSUED

NCUA Financial Statement Audits, dated March 31, 2004

Our contract accounting firm, Deloitte & Touche LLP, issued opinions on the 2003
financial statements of the National Credit Union Administration Operating Fund,
National Credit Union Share Insurance Fund, the Central Liquidity Facility, and the
Community Development Revolving Loan Fund. The auditors found that the financial
statements presented fairly the financial position of the agency’s funds as of December
31, 2003. The firm issued its opinions on February 24, 2004.

The NCUA Operating Fund (OIG-04-01) was established as a revolving fund managed
by the NCUA Board for the purpose of providing administration and service to the
federal credit union system. The auditors issued an unqualified opinion on the
Operating Fund’s financial statements. The Funds total assets for 2003 were $64.4
million, up from $55.9 million in 2002.

The National Credit Union Share Insurance Fund (OIG-04-02) was established as a
revolving fund managed by the NCUA Board to insure member share deposits in all
Federal credit unions and qualifying state credit unions up to $100,000 per shareholder
account. The auditors issued an unqualified opinion on the Share Insurance Fund’s
financial statements. The Fund’s total assets for 2003 were $6.2 billion, up from $5.7
billion in 2002.

The Central Liquidity Facility (OIG-04-03) was established as a mixed ownership
government corporation managed by the NCUA Board to improve general financial
stability by meeting the liquidity needs of credit unions. The auditors issued an
unqualified opinion on the CLF’s financial statements. The CLF’s total assets for 2003
were $1.2 billion, up from $1.1 billion in 2002.

The Community Development Revolving Loan Fund’s (OIG-04-04) purpose is to
stimulate economic activities in the communities served by low-income credit unions.
This in turn will result in increased income, ownership and employment opportunities for
low-wealth residents and other economic growth. The auditors issued an unqualified
opinion on the Fund’s financial statements. The CDRLF’s total assets for 2003 were
$14.3 million, up from $13.3 million in 2002.

The financial auditors did not find any matters considered to be material weaknesses in
their review of the Funds’ internal control structures pertinent to financial reporting.
However, during the performance of the audit, several observations and
recommendations were presented relating to internal control over financial reporting, and
certain other accounting, administrative, and operating matters.



                                           10
OIG Semiannual Report                                                         March 2004


AUDITS IN PROGRESS

Review of NCUA’s Parking Operations Agreement

It has been 10 years since NCUA originally entered into a parking lot operations
agreement for management and operation of the parking garage located directly under the
NCUA Central Office Building at 1775 Duke Street, Alexandria, Virginia. This review is
focusing on the controls in place to ensure the accurate reporting of revenue and expenses
related to NCUA’s parking spaces.

Review of NCUA’s Supervision of State Chartered Credit Unions

The objective of this review is to evaluate NCUA’s role in determining and managing the
risk that federally insured state chartered credit unions pose to the Share Insurance Fund.
Additionally, this review will evaluate how NCUA varies its approach or level of effort
in response to the level of risk of individual state programs; determine if NCUA is
performing reviews of all state examination reports; and determine how NCUA
communicates identified problems to the state supervisory authorities when problems are
identified during NCUA’s off-site reviews.

Independent Evaluation of the NCUA’s Information Security Program for 2004

The Federal Information Security Management Act (FISMA), Public Law 107-347,
requires Inspectors General to perform independent evaluations of agency compliance
with FISMA and agency security policies and procedures. This review will evaluate the
agency’s progress in complying with the Security Management Act (FISMA); and Office
of Management and Budget Circular A-130, Appendix III. The report will discuss the
effectiveness of NCUA’s information security controls to protect and secure NCUA’s
information technology infrastructure and assets.


SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE
ACTION HAS NOT BEEN COMPLETED

As of March 31, 2004, there were no significant audit recommendations on reports issued
over six months ago that have not been either fully implemented or in the process of
implementation.




                                            11
OIG Semiannual Report                                                        March 2004




                        INVESTIGATIVE ACTIVITY




 I
      n accordance with professional standards and guidelines established by
      the Department of Justice, the OIG performs investigations of criminal,
      civil, and administrative wrongdoing involving agency programs. Our
      investigative jurisdiction focuses on activities designed to promote
economy, effectiveness, and efficiency, as well as fighting fraud, waste, and
abuse in agency programs. In addition to our efforts to deter misconduct and
promote integrity awareness among agency employees, we investigate referrals and direct
reports of employee misconduct. Investigations may involve possible violations of
regulations regarding employee responsibilities and conduct, Federal criminal law, and
other statutes and regulations pertaining to the activities of NCUA employees.

Moreover, we receive complaints from credit union members and officials that involve
NCUA employee program responsibilities. We examine these complaints to determine
whether there is any allegation of NCUA employee misconduct. If not, we refer the
complaint to the appropriate regional office for response, or close the matter if contact
with the regional office indicates that the complaint has already been appropriately
handled.

During the last reporting period, the OIG reported on the execution of a Memorandum of
Understanding between the OIG and the agency’s Office of the Executive Director
(OED) regarding the sharing of information and handling and dissemination of OIG
reports. The investigations staff appreciates the considerable efforts of the OED in
facilitating increased communications between the OED and the OIG.

During this reporting period, the NCUA investigations staff organized a working group
of investigators from smaller government IG offices for the purpose of exchanging ideas
and establishing a basis for sharing resources. The group meets every other month and
has been steadily increasing in membership.

Also during this reporting period, the OIG received a referral from the agency regarding
an employee who had abandoned his position as a credit union examiner and been
missing for several months. The agency had made numerous attempts to contact the
employee, and, failing that, was in the process of terminating his employment with the
NCUA. The agency reported to the OIG that the employee was still in possession of
agency computer equipment worth several thousand dollars as well as original credit
union documents. The investigations staff initiated a search for the individual, and, upon
locating him, lured him to a particular location where he was confronted by agents. The
employee admitted to having the equipment and led the agents to the location where the
equipment and files were stored. All items were recovered without incident.


                                           12
OIG Semiannual Report                                                        March 2004




                        Investigative Operations


                            Contacts/inquiries/investigations carried 2
                              forward from previous reporting period

                            Contacts initiated during reporting period   6

                            Contacts closed                              4

                            Investigative reports issued                 1

                            Investigative Subpoenas issued               1

                            Matters referred back to the agency          8

                            Management Implication Reports issued        0

                            Matters remaining open                       4



CLOSED INVESTIGATIONS


During this reporting period, we closed four (4) matters.

One (1) investigation, as reported above, involved an employee who had abandoned his
position as a credit union examiner and been missing for several months. The agency had
made numerous attempts to contact the employee, and, failing that, was in the process of
removing the employee from government service. The employee was still in possession
of agency computer equipment worth several thousand and original credit union
documents. Investigations staff initiated a search for the individual, and, upon locating
him, lured him to a particular location where he was confronted by agents. The employee
admitted to having the equipment and led the agents to the location where the equipment
and files were stored. All items were recovered without incident. No criminal charges
were sought in connection to this case.

One (1) investigation involved allegations against an agency senior official of actions
which, if true, constituted a criminal conflict of interest. The OIG conducted initial
interviews and determined that the allegations were unwarranted. After consultation with
the United States Attorney’s office, the OIG closed the matter.




                                            13
OIG Semiannual Report                                                        March 2004

One (1) investigation involved an allegation that an unnamed agency senior official had
inappropriately provided personal information to the media regarding a credit union
member. The OIG reviewed relevant documentation and conducted interviews and
determined that an agency Regional Director had confirmed to a reporter information
about a citizen that constituted an improper release of non-public information. The facts
uncovered revealed that the release of information was inadvertent. The agency is
considering action in this matter.

One (1) investigation involved allegations of travel fraud and false claims by an agency
employee. Initial investigation determined that the allegations were without merit and
the matter was closed to the file.

During this reporting period, we received eight (8) referrals for investigation which were
declined for investigation and/or were returned to the agency for appropriate action.




                                           14
OIG Semiannual Report                                                       March 2004



          LEGISLATIVE AND REGULATORY REVIEWS

Section 4(a) of the Inspector General Act requires the Inspector General to review
existing and proposed legislation and regulations relating to the programs and operations
of NCUA and to make recommendations concerning their impact. Moreover, we
routinely review proposed agency instructions and other policy guidance, in order to
make recommendations concerning economy and efficiency in the administration of
NCUA programs and operations and the prevention and detection of fraud, waste and
abuse.

During the reporting period, the OIG reviewed items, including proposed and final
changes to legislation, regulations, and agency Interpretive Ruling and Policy Statements
(IRPS).

          SUMMARY OF STATUTES AND REGULATIONS REVIEWED

      Legislation                                     Title
 H.R. 1375/H.R. 3579     Regulatory Relief/CURIA


 Regulations/Rulings                                Title
 12 CFR Part 701      Proposed Rule and Summary of Comments: Change in Official
                      or Senior Executive Officer in Credit Unions that are Newly
                      Chartered or Are in Troubled Condition
 12 CFR Part 701, 742 Final Rule: Federal Credit Union Ownership of Fixed Assets
 12 CFR Parts 703,    Final Rule: Investment in Exchangeable Collateralized
 704                  Mortgage Obligations
 12 CFR Part 708a     Proposed Rule with Request for Comments: Conversion of
                      Insured Credit Unions to Mutual Savings Banks
 12 CFR Part 708b     Proposed Rule with Request for Comments: Mergers of
                      Federally-Insured Credit Unions; Voluntary Termination or
                      Conversion of Insured Status
 12 CFR Part 717      Notice of Proposed Rulemaking: Fair Credit Reporting--
                      Affiliate Marketing Regulations
 12 CFR parts 717,    Notice of Proposed Rulemaking: Fair Credit Reporting—
 748                  Proper Disposal of Consumer Information under the Fair and
                      Accurate Credit Transactions Act of 2003
 12 CFR Section 723   Proposed Rule and Summary of Comments: Member Business
                      Loans
 12 CFR Parts 724,    Notice of Proposed Rulemaking: Health Savings Accounts
 721
 12 CFR Part 745      Interim Final Rule with Request for Comments: Share
                      Insurance; Living Trust Accounts


                                           15
OIG Semiannual Report                                               March 2004


12 CFR Chap. VII        Proposed Rule; Notice of Regulatory Review; Request for
                        Comments: Summary of Comments--EGRPRA




                                       16
OIG Semiannual Report                                                        March 2004



                                      TABLE I

                    INSPECTOR GENERAL ISSUED REPORTS
                         WITH QUESTIONED COSTS

                                                   Number of   Questioned   Unsupported
                                                    Reports      Costs         Costs

A.     For which no management
       decision had been made by the                  0           $0              $0
       start of the reporting period.

B.     Which were issued during the
       reporting period.                              0            0              0

       Subtotals (A + B)                              0            0              0

C.     For which management decision
       was made during the reporting                  0            0              0
       period.

       (i) Dollar value of disallowed costs           0            0              0

       (ii) Dollar value of costs not                 0            0              0
       disallowed

D.     For which no management
       decision has been made by the end              0            0              0
       of the reporting period.

E.     Reports for which no management
       decision was made within six                   0            0              0
       months of issuance.


Questioned costs are those costs the OIG has questioned because of alleged violations of
laws, regulations, contracts, or other agreements; findings which at the time of the audit
are not supported by adequate documentation; or the expenditure for the intended purpose
is unnecessary or unreasonable.

Unsupported costs (included in "Questioned Costs") are those costs the OIG has
questioned because of the lack of adequate documentation at the time of the audit.




                                              17
OIG Semiannual Report                                                     March 2004



                                    TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                           Number of          Dollar
                                                            Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.               0               $0

 B.    Which were issued during the reporting period.           0               0

       Subtotals (A + B)                                        0               0

 C.    For which management decision was made
       during the reporting period.                             0               0

       (i) Dollar value of recommendations agreed to
       by management.                                          N/A             N/A

       (ii) Dollar value of recommendations not
       agreed to by management.                                N/A             N/A

 D.    For which no management decision was made
       by the end of the reporting period.                      0               0

 E.    For which no management decision was made
       within six months of issuance.                           0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                          18
OIG Semiannual Report                                             March 2004



                               TABLE III
                   SUMMARY OF OIG ACTIVITY
              OCTOBER 1, 2003 THROUGH MARCH 31, 2004

PART I – AUDIT REPORTS ISSUED
Report                                                            Date
Number     Title                                                  Issued
OIG-04-01  Financial Audit: NCUA Operating Fund                   3/31/2004
OIG-04-02  Financial Audit: Share Insurance Fund                  3/31/2004
OIG-04-03  Financial Audit: Central Liquidity Fund                3/31/2004
OIG-04-04  Financial Audit: Community Development Revolving       3/31/2004
           Loan Fund

PART II – AUDITS IN PROGRESS (as of March 31, 2004)
           Review of NCUA’s Parking Operations Agreement
           Review of NCUA’s Supervision of State Chartered Credit Unions
           Independent Evaluation of the NCUA’s Information Security Program
           for 2004




                                    19
OIG Semiannual Report                                               March 2004



             INDEX OF REPORTING REQUIREMENTS

 SECTION                       DATA REQUIRED                       PAGE REF
  4(a)(2)    Review of Legislation and Regulations                    15
  5(a)(1)    Significant Problems, Abuses, or Deficiencies            10
             relating to the administration of programs and
             operations disclosed during the reporting period.
  5(a)(3)    Recommendations with Respect to Significant              10
             Problems, Abuses, or Deficiencies.
  5(a)(3)    Significant Recommendations Described in Previous        11
             Semiannual Reports on Which Corrective Action Has
             Not Been Completed.
  5(a)(4)    Summary of Matters Referred to Prosecution              None
             Authorities and Prosecutions, Which Have Resulted.
  5(a)(5)    Summary of Each Report to the Board Detailing           None
             Cases Where Access to All Records Was Not
             Provided or Where Information Was Refused.
  5(a)(6)    List of Audit Reports Issued During the Reporting        19
             Period.
  5(a)(7)    Summary of Particularly Significant Reports.             10
  5(a)(8)    Statistical Tables on Audit Reports With Questioned      17
             Costs.
  5(a)(9)    Statistical Tables on Audit Reports With                 18
             Recommendations That Funds Be Put To Better Use.
  5(a)(10)   Summary of Each Audit Report Issued Before the          None
             Start of the Reporting Period for Which No
             Management Decision Has Been Made by the End of
             the Reporting Period.
  5(a)(11)   Description and Explanation of Reasons for any          None
             Significant Revised Management Decision Made
             During the Reporting Period.
  5(a)(12)   Information Concerning Significant Management           None
             Decisions With Which the Inspector General is in
             Disagreement.




                                        20
OIG Semiannual Report                                         March 2004




                        WE WANT TO HEAR FROM YOU



                CALL THE OIG HOTLINE




                        TOLL FREE 1-800-778-4806

                        WASHINGTON METRO AREA
                            703-518-6357
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL




                                   21
